DOE/IG-0429




         AUDIT
        REPORT

                                             THE
                                 U.S. DEPARTMENT OF ENERGY'S
                                X-CHANGE 1997: THE GLOBAL D&D
                                  MARKETPLACE CONFERENCE




                                            SEPTEMBER 1998




   U.S. DEPARTMENT OF ENERGY
  OFFICE OF INSPECTOR GENERAL
    OFFICE OF AUDIT SERVICES
                                            DEPARTMENT OF ENERGY
                                               Washington, DC 20585

                                                   October 16, 1998


MEMORANDUM FOR THE SECRETARY

FROM:                  Gregory H. Friedman
                       Acting Inspector General

SUBJECT:               INFORMATION: Audit Report on "The U.S. Department of Energy's
                       X-Change 1997: The Global D&D Marketplace Conference"

BACKGROUND

The Department of Energy and Florida International University (FIU) cosponsored the "X-Change 1997:
The Global D&D Marketplace" conference. The conference included speeches and workshops on
decontamination and decommissioning topics, as well as exhibits of technologies presented by industry. It
also included special events such as receptions and dinners that conference organizers intended to be paid for
through corporate conference sponsors. The Department paid for the conference costs, but expected to
recover the costs through registration and exhibit fees charged to conference attendees.

The audit was performed in response to a request from the Assistant Secretary for Environmental
Management. Our audit objectives were to determine whether FIU had controls in place to ensure that
public funds were used appropriately, and whether fiscal practices associated with the conference were
consistent with Government requirements and Departmental policy.

RESULTS OF AUDIT

FIU implemented accounting and budget mechanisms to identify and control the sources and uses of funds.
However, the absence of a Departmental policy on funding conferences resulted in questionable fiscal
practices associated with the conference. The Department's plan to retain registration and exhibit fees was
not consistent with Government budgetary and accounting requirements. The Department did not have
specific statutory authority to retain these fees which constitute miscellaneous receipts that must be returned
to the Department of Treasury. Additionally, there was questionable use of sponsorship funds and added
conference costs to the Department.

We recommended that Department Headquarters officials develop a policy governing the sponsorship of
conferences. In addition, we recommended that the Acting Manager (Manager) of the Chicago Operations
Office recoup and return to the Department of the Treasury conference registration and exhibit fees, direct
FIU to return to the Government the cost of benefits provided to sponsors, and disallow the cost of
corporate sponsored activities.
MANAGEMENT REACTION

The Chief Financial Officer, in conjunction with the Office of General Counsel, the Office of Human
Resources and Administration, and the Manager, indicated general concurrence with the recommendations
made in this report. The Manager did not agree with the amount cited in the audit report that should be
returned to the Department of the Treasury. The Manager also disagreed with the recommendation to direct
FIU to return to the Government the cost of benefits provided to sponsors.

Management reaction and auditor comments are more fully discussed in the body of this report.

cc: Deputy Secretary
    Under Secretary
The U.S. Department of Energy's X-Change 1997: The Global D&D
Marketplace Conference




TABLE OF
CONTENTS



                  Overview

                  The X-Change Conference ..................................................................1


                  Funding the X-Change Conference

                  Details of Finding...............................................................................3

                  Recommendations and Comments .......................................................7


                  Appendices

                  1. Scope and Methodology..............................................................10

                  2. Other Matters..............................................................................11
Overview

INTRODUCTION      The Department of Energy and Florida International University (FIU),
AND OBJECTIVE     a state university, cosponsored the "X-Change 1997: The Global D&D
                  Marketplace" conference (X-Change Conference) that was held
                  December 1-5, 1997, in Miami, Florida. The purpose of the conference
                  was to disseminate information on decontamination and
                  decommissioning problems, solutions, and technologies to an
                  international audience of government, industry, and academia.
                  Through a contract with the Department, FIU was responsible for
                  conference planning, organization, and logistical support. FIU awarded
                  a subcontract to ICF, Inc. to work on the conference. ICF, Inc. is a
                  major Department contractor with responsibilities for projects at
                  Hanford, Argonne National Laboratory and Los Alamos National
                  Laboratory.

                  Approximately 700 individuals paid to attend the conference. Of these,
                  280 were U.S. and foreign government representatives, about 340 were
                  from industry and 80 were from academia. Attendees included
                  representatives from European, North American, and South American
                  countries. The conference included speeches and workshops on
                  decontamination and decommissioning topics, as well as exhibits of
                  technologies presented by industry. It also included special events,
                  including receptions and dinners that conference organizers intended to
                  be paid for through corporate conference sponsors.

                  The conference was estimated to cost about $1.3 million, which
                  organizers expected to recover through registration and exhibit fees
                  charged attendees. As of April 30, 1998, the total conference costs
                  were $1.1 million, and revenue from registration and exhibit fees
                  totaled about $461,000. Conference organizers also collected
                  approximately $132,247 from corporate sponsors for the purpose of
                  paying for receptions and dinners, which were not included in the
                  overall conference costs.

CONCLUSIONS AND   The audit was performed in response to a request from the then
OBSERVATIONS      Assistant Secretary for Environmental Management. Our audit
                  objectives were to determine whether FIU had controls in place to
                  ensure that public funds were used appropriately and whether fiscal
                  practices associated with the conference were consistent with
                  Government requirements and Departmental policy.

                  FIU had implemented accounting and budget mechanisms to identify
                  and control the sources and uses of funds. However, the lack of a


Page 1                                                     The X-Change Conference
         Departmental policy on funding conferences resulted in questionable
         fiscal practices associated with the X-Change Conference. Specifically,
         the contract recoupment clause and the Department's plans to retain
         registration and exhibit fees were not consistent with Government
         budgetary and accounting requirements, which require that the funds be
         returned to the Department of Treasury as a miscellaneous receipt.
         Furthermore, there was no policy on using corporate sponsors to fund
         entertainment activities associated with Department conferences or
         charging Department employees and contractors for attending such
         sponsored conferences. As a result, sponsorship funds were used to pay
         for the conference's social events without reimbursing the Department
         for the cost of benefits provided to the sponsors. Also, the overall cost
         of the X-Change Conference increased because the Department paid the
         costs of the conference as well as registration and exhibit fees for its
         employees and contractors.




                                                 /S/
                                     Office of Inspector General




Page 2
Funding the X-Change Conference

Government            Conference organizers originally planned that the X-Change Conference
Requirements And      would be self-financing and attempted to ensure that the cost of social
X-Change Conference   events associated with the conference would not be paid for with
Activities            Government funds. However, the Department and FIU were not
                      successful in achieving these objectives. Specifically:

                      • The conference was not self-financing. Registration and exhibit fees
                        collected for the conference were miscellaneous receipts that could
                        not be used to reimburse the Department for the cost of the
                        conference.

                      • There was questionable use of corporate sponsorship funds.
                        Sponsors contributed funds that were used to pay for unallowable
                        entertainment activities; however, the Department incurred the cost
                        of benefits provided to sponsors. In at least one case, the
                        sponsorship contribution was charged to another Department
                        contract.

                      • There was an increased overall cost of the conference to the
                        Government. The Department not only paid conference costs but
                        also paid for its own employees and contractors to attend the
                        conference.

                      The applicable requirements and the specifics of each of the above
                      matters are discussed below.

                                         Self-Financing Conference Activities

                      The Miscellaneous Receipts Statute requires that monies collected to
                      reimburse the Government for expenditures previously made must be
                      deposited as miscellaneous receipts with the Department of the
                      Treasury. The Comptroller General of the United States has held that
                      this provision applies in all cases unless there is a statutory authority to
                      retain the monies collected (5 Comp. Gen. 289, 290).

                      The Department, through its Chicago Operations Office, cosponsored
                      the "X-Change Conference" with FIU. Under the terms of a contract
                      between the Department and FIU for research and the conference, the
                      University would be reimbursed for conference costs incurred and all
                      revenues from the conference would be returned to the Department.
                      Accordingly, FIU collected and segregated approximately $461,000 in
                      registration and exhibit fees to be returned to the Department. Through


Page 3                                                                        Details Of Finding
         these fees, the Department planned to recoup conference costs so that
         the conference would be self-financing, and to use the recouped funds to
         fund the research originally planned in the FIU contract. This research
         had been halted prior to the conference.

         Although the contract language and the program's stated intention was
         for all conference receipts to be recouped by the Department, the
         contract documents did not state any statutory authority to retain these
         funds. Furthermore, the Department's appropriations for FY 1997 and
         1998 did not specifically authorize the retention of any funds resulting
         from sponsored conferences. We discussed this matter with the Office
         of the General Counsel who advised that absent specific statutory
         authority to retain funds, the conference receipts are likely to be
         considered miscellaneous receipts that should be returned to the
         Department of Treasury. Officials from the Office of Chief Financial
         Officer advised us that they were not aware of any specific authority
         granted by the Congress for the Department to retain conference
         receipts.

                              Use of Corporate Sponsorships

         Office of Management and Budget Circular A-21, Cost Principles for
         Educational Institutions, states that entertainment costs are unallowable
         and that any costs allocable to activities sponsored by industry or other
         sponsors may not be shifted to Federal agreements. Department of
         Energy acquisition regulations further provide that entertainment and
         advertising costs are unallowable for its management and operating
         contractors.

         As part of the X-Change Conference, FIU solicited corporate
         contributions to fund social events that could not be paid for by the
         Department. These social events included dinners, receptions, a golf
         tournament, and a basketball game. Federal regulations prohibit the
         Government from paying for entertainment costs.

         FIU had collected approximately $132,247 in corporate sponsorship
         funds as of April 30, 1998. As part of the solicitation, corporations
         were offered a package of benefits, which varied depending upon their
         level of sponsorship. For example, a $20,000 "platinum" sponsor
         received complimentary exhibit and demonstration spaces, two
         complimentary registrations, and various benefits including an
         advertisement as the exclusive sponsor of a conference breakfast. All of


Page 4                                                        Details Of Finding
         the benefits provided to sponsors were paid for by the Department
         through its contract with FIU.

         The Office of the General Counsel advised us that the Department
         should recover the cost of benefits provided to the sponsors. The
         portion of the sponsorship funds associated with registration and exhibit
         fees was approximately $80,750. Sponsors also benefited from
         advertising on the Internet, brochures, conference programs, and
         mailings paid for by the Department as part of the overall conference
         promotion. We were not able to quantify the cost of these activities.

         We noted that most of the corporate sponsors of the conference had
         either prime or management and operating contracts with the
         Department. Further, the sponsorship costs of at least one of the
         Department's managing and operating contractors will flow back to the
         Department. The contractor, a $5,000 X-Change corporate sponsor,
         paid for the sponsorship package from a program development account,
         which is allocated to its clients. Contractor officials indicated that the
         Department would be allocated about 77 percent of the cost of the
         sponsorship contribution. Through this mechanism, sponsorship funds
         would be used to pay traditionally unallowable expenses and charged
         back to the Government through a corporate overhead account.

         The cost of corporate sponsored activities also flowed back to the
         Department because FIU has billed the Department for breakfasts and
         coffee breaks that were sponsored by other entities as part of their
         contributions. FIU considered the costs of food service directly
         associated with the conference to be allowable costs charged to the
         conference. However, under the provisions of OMB-Circular A-21, the
         cost of industry sponsored activities could not be passed back to the
         Government. Sponsored breakfast and coffee break costs were
         $24,714.

                                  Cost of The Conference

         The Department paid for the costs of the conference and also paid for
         registration and exhibit fees for its employees and employees of its
         contractors. About 700 attendees paid for the conference and
                                    1
         approximately 40 percent of these were either Department employees
         or employees of Departmental contractors. The Department paid for its


         1
         Eighty-nine Departmental employees and approximately 190 individuals
         who worked for Departmental contractors attended the conference.
Page 5                                                         Details Of Finding
                          employees to attend the conference. Furthermore, the cost of the
                          conference also increased because contractor employees’attendance
                          was an allowable charge to other Department contracts. As a result, the
                          Department may have paid as much as $184,000 in conference
                          registrations and exhibit fees in addition to the overall cost of the
                          conference.

                          Further, as previously noted, the Department will pay for part of at least
                          one contractor's sponsorship contribution, which was used to pay for
                          traditionally unallowable costs through that contractor's "program
                          development account."


The Department Needs A    The Department did not have a policy on funding conferences. The
Policy On Funding         absence of policy allowed Department officials to draw differing
Conferences               interpretations concerning the X-Change Conference recoupment
                          contract clause and its consistency with appropriation law.

                          Officials in the Offices of the General Counsel and Chief Financial
                          Officer advised us that questions are received on a weekly basis
                          regarding when registration and exhibit fees should be charged to the
                          Department and its contractor employees. There were also questions
                          about when fees can be retained or must be returned to the Treasury.

                          Similarly, there is no Departmental policy governing the solicitation of
                          corporate sponsors to fund social events associated with sponsored
                          conferences. As demonstrated above, the Department incurred costs in
                          providing benefits to sponsors and was paying part of the costs of at
                          least one sponsor's contribution. A policy is needed to ensure that the
                          Department does not pay for otherwise unallowable costs through
                          indirect methods such as corporate sponsors.


Management Of The         Because the Department did not have a policy on conferences it
Department's Costs For    sponsors, questionable fiscal practices occurred that increased the cost
The X-Change Conference   of the X-Change Conference to the Department. For example,
                          registration and exhibit fees of $461,000 should be returned to Treasury
                          as miscellaneous receipts. The Department also incurred approximately
                          $80,750 in costs to benefit corporate sponsors. In turn, corporate
                          sponsors contributed funds that were used to pay for unallowable
                          entertainment costs. In addition to paying for all costs associated with
                          sponsoring the conference, the Department also incurred registration
                          and exhibit fee costs for its employees and contractors.

Page 6                                                                         Details Of Finding
RECOMMENDATIONS   1. The Department's Chief Financial Officer, in cooperation with the
                     Office of Human Resources and Administration and General Counsel,
                     should develop a policy governing Department sponsorship of
                     conferences to:

                     a. Clarify the treatment of conference funds, i.e., registration and
                        exhibit fees. Specifically, the policy should describe conditions
                        when such funds are miscellaneous receipts that must be returned
                        to the Treasury and those conditions that would allow the
                        Department to retain such funds.

                     b. Specify when and under what circumstances, if any, the
                        Department and its contract employees should be charged
                        registration fees to attend Department sponsored conferences.

                     c. Provide specific guidance on (i) the solicitation of private
                        sponsorship funds to pay for costs of entertainment activities
                        associated with Department conferences, (ii) incurring costs to
                        solicit sponsors, and (iii) the allowability of reimbursing
                        Departmental contractors for sponsorship costs.

                  2. The Manager, Chicago Operations Office, working in conjunction with
                     the Office of Environmental Management, should:

                     a. Recoup from FIU and return to the Department of Treasury
                        registration and exhibit fees unless the Department specifically
                        identifies its authority to retain such funds.

                     b. Direct FIU to return to the Government from sponsorship funds
                        the monetary value of free registrations and exhibit fees provided
                        to corporate sponsors (approximately $80,750).

                     c. Disallow $24,714 in costs billed to the Department for corporate
                        sponsored activities.


MANAGEMENT        The Chief Financial Officer, in conjunction with the Office of General
COMMENTS          Counsel, the Office of Human Resources and Administration, and the
                  Acting Manager (Manager), Chicago Operations Office, commented on
                  our report. They generally concurred with the points and
                  recommendations made in the report. The Chief Financial Officer
                  concurred with the recommendation to develop a policy governing the


Page 7                                               Recommendations And Comments
           Department's sponsorship of conferences, including policy on the
           treatment of conference funds, conditions when Department employees
           and contractors should be charged to attend such conferences, and on
           the solicitation of private sponsorship funds.

           The Manager, Chicago Operations Office, generally concurred with the
           recommendation to recoup and return to the Treasury appropriate
           conference registration and exhibit fees. However, the Manager did not
           agree with the dollar amount cited in the audit report. He stated that the
           Department should not have paid for its employees and contractors to
           attend the conference. The Manager concluded that these fees should be
           deducted from miscellaneous receipts/collections to be returned to the
           Treasury. Accordingly, the Manager believed that $184,400 of the
           $461,000 should not be returned to the Treasury.

           The Manager disagreed with the recommendation to direct Florida
           International University to return to the Government from sponsorship
           funds the monetary value of free registrations and exhibit spaces
           provided to corporate sponsors. The Manager stated that the
           Government was not harmed by the University's waiver of these fees
           because they would have been allowable costs that would have been
           reimbursed under the sponsor's contracts with the Department.
           Furthermore, the Manager stated that allowing the waiver was
           consistent with not charging Departmental employees and contractors
           for attendance at the conference.

           Finally, the Manager requested additional documentation regarding the
           costs billed to the Department for corporate sponsored activities.


AUDITOR    Management's comments are generally responsive to the
COMMENTS   recommendations. Regarding the Manager's disagreement with the
           dollar amount to be returned to the Treasury, the Chicago Operations
           Office should recoup the $461,000 in registration and exhibit fees from
           FIU and return to the Treasury an amount consistent with the
           Departmental guidance to be developed on funding conferences.
           Regarding the Manager's disagreement with the recommendation to
           recover from sponsorship funds the value of free registrations and
           exhibit space, the Department should recover the Government's costs
           associated with generating sponsorship contributions. These
           contributions were used to pay for otherwise unallowable entertainment
           expenses. In at least one case, these contributions will be charged to


Page 8                                       Recommendations And Comments
         another Departmental contract, which means that the Department is
         indirectly paying for the conference's social activities. Non-
         Departmental contributors received benefits that should have generated
         revenue to offset the cost of the conference. Instead, they made
         contributions that were used to pay for the conference's social events.

         We provided the Chicago Operations Office with additional
         documentation for the cost of sponsored activities that were billed to the
         Department.




Page 9
Appendix 1

SCOPE         Our audit of the X-Change Conference was performed at the Chicago
              Operations Office; FIU in Miami, Florida; ICF Kaiser in Fairfax,
              Virginia; and the Department of Energy in Germantown, Maryland, from
              January to March 1998.


METHODOLOGY   To accomplish the audit objectives, we:

                 • reviewed Government and Departmental budgetary and
                   accounting requirements;

                 • assessed the controls over the funds provided by the Department
                   for the conference;

                 • reviewed the contract, subcontracts, and clauses relating to the
                   conference;

                 • examined accounting records, receipts, and budgetary
                   information including the Department's FY 1997 and 1998
                   appropriations; and

                 • reviewed additional conference and contract materials related to
                   our objectives.

              We also met with members of the Department's Office of the General
              Counsel and Office of Chief Financial Officer concerning recoupment
              and appropriations law and procurement laws and regulations. We held
              an exit conference with the Chief Financial Officer and the Assistant
              Group Manager for Environmental Programs of the Chicago Operations
              Office on March 18, 1998.

              The audit was performed in accordance with generally accepted
              Government auditing standards for performance audits and included
              tests of internal controls and compliance with laws and regulations to the
              extent necessary to satisfy the audit objectives. Because our review was
              limited, it would not necessarily have disclosed all internal control
              deficiencies that may have existed at the time of our audit. We did not
              conduct a reliability assessment of computer-processed data because
              such data was not relied upon during the audit.




Page 10                                                   Scope And Methodology
Appendix 2

OTHER MATTERS   Based on limited testing, it was determined that Department employees
                were not reducing the per diem claimed on travel vouchers for meals
                provided at the X-Change Conference. At this conference, as part of the
                registration fee, breakfasts and lunches were provided. The Federal
                Travel Regulation, 301-7.12, and DOE Order 1500.2A provide guidance
                and tables on reductions to per diem for meals provided while on travel.
                This issue was not in the scope of our audit and is not addressed further
                in this report. However, the issue has been addressed in prior Office of
                Inspector General reports and is part of a review currently in process
                within the Office of Inspections. In separate correspondence to the
                Chief Financial Officer and the Acting Assistant Secretary for Human
                Resources and Administration, the Office of Inspector General discussed
                the need for corrective action.




Page 11                                                                  Other Matters
                                                                    IG Report No. DOE/IG-0429

                              CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers'
requirements, and, therefore, ask that you consider sharing your thoughts with us. On the back
of this form, you may suggest improvements to enhance the effectiveness of future reports.
Please include answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been
   included in this report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any
questions about your comments.

Name _____________________________             Date __________________________

Telephone _________________________            Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer
     friendly and cost effective as possible. Therefore, this report will be available
         electronically through the Internet at the following alternative address:


       Department of Energy Human Resources and Administration Home Page
                            http://www.hr.doe.gov/ig


           Your comments would be appreciated and can be provided on the
                  Customer Response Form attached to the report.


                          This report can be obtained from the
                              U.S. Department of Energy
                     Office of Scientific and Technical Information
                                      P.O. Box 62
                             Oak Ridge, Tennessee 37831
